HHS/OIG-Audit--"Third Party Liability Collections Under the Medicaid Program- Indiana Department of Public Welfare, (A-05-91-00052)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Third Party Liability Collections Under the Medicaid Program- Indiana
Department of Public Welfare," (A-05-91-00052)
May 20, 1992
Complete Text of Report is available in PDF format
(1.14 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require States to pay the Federal Government a portion
of third party liability (TLP) collections. The appropriate amount is determined
by applying the Federal Medicaid matching percentage to total TPL collections.
The State agency attempted to credit the applicable portion of TPL collections
to the Federal Government on quarterly expenditure reports but, through clerical
errors, the effect of the credits was negated by offsetting entries on the same
reports. We recommended that the State agency refund $15 million, the aggregate
Federal share of TPL credits due, and improve internal controls over TPL collections
and reporting.